                                         NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM

Case Number: A08120067                                                              Page 1 of 1


    We received an allegation that a proposal l submitted to NSF had been placed on the
    internet. We verified an NSF Program Manager2 had uploaded the proposal to his
    personal web page at his university. The accompanying report of investigation and
    NSF's decision represent the closeout of this case.




      1 (redacted)
      2 (redacted). He was at NSF through the Intergovernmental Personnel Act from (redacted).
-   ---~.-~




         CONFIDENTIAL                         CONFIDENTIAL




                    National Science
                  ~   Foundation
              Office of Inspector General




                       Confidential
                            J



                  Report of Investigation
                 Case NUll1ber A-08120067
                        26 August 2009


                                         NSF OIG Form 22b (11/06)
                                                                                                       .         ;.   , j   t.
                                REPORT OF INvESTIGATION
                                      •   I.



 Please note this report contains confidential personal information,' and it'should
 be ~disclosed, only to individuals who must have-knowledge of·its· contents 'to
 facilitate NSF's' assessment and resolution of this matter.         Unauthorized'
 disclosure may result III personal criminal liability under the Privacy Act,
 5 U.S.C. § 552a(i)(1);                     ,
                                                                                 ,   ,
                                                             ",
                                     Su"mmary of Complaint
                                                   ,                     <   t                 I   ~                               !



 In December 2008, we received a telephone call,asking abou;t.the confidentiality of.
 prorosals submitted to NSF; th.e caller,had found Whl:~.t appeared to be a recent NSf
 proposal on the internet through a Google search.' The caller identified. the location
 of the proposal as ,being on the subject's .uniyersityweb p,age.!. We. assured .the
 cal~er it was not NSF's'policy or practice to m~ke configential proposals publically
 available by placing them on internet web page's,. and we would look into ho'Y t~e
'propos,al got there.                                       r:t  ~.
                                                                                                                                 ., ,   .   .




                                                   Investigation                                           ' ,
 We conducted a similar Google' search and verified ,the' proposal was - indeed
 publically available on the subject's personal university' weh ,page (Appendix 1).2 ..
 We' downloaded the p~oposal from',the s~bje~t's web page (Appe~dix 2). We' not'ed
 the proposal was declined and thus would not have been available through a
 Freedom of Information Act request. We learned the' s"~'ojectis an IPA at NSF from
 the university.3 We verified through an eJacket 'request that -the subject had
 accessed the proposal. TheeJacKetdocumentation showed he had accessed the
 proposal' at the end of May 2008,' shortly after it' was submitted. The eJ acket
,documentatiori also shows another· Program Director,4 -rather than the subject, as
 the Program Director (PD) responsible for the review and recommendation.
We interviewed' the subject (first providing an'administrative" warning)5 to
determine if he had violated NSF's policy in the handling of this proposal. We'
asked if he had attended the Program Management, Seminar; he responde.~
                                                       f"'   'I,'    •       (                                                    '.    ,




    1 (redacted).     ."                    .    ". ' \ .   ",                     .
    2 Although the proposal can be found through an internet search engine and is thus publicly
accessible and downloadable, the subject did not create a link visible to casual viewers of his web
page.
    3 The subject is a Program Director in (redacted). The subject came to NSF from (redacted) via
an Intergovernmental Personnel Act (IPA) award (redacted)~                 "                        ,.
    4 (redacted).           _'"   I'           .             _'...            t.).   " , ...


    5 In order to proceed administratively; we 'presented the case to an Assistant U.S. Att~rney .
(AU SA) for consideration of pfo'secution. The AU sA deClined criminal prosecution allowing us to . l .
give the subject a Kalkines (administrative) warning, which is attached at Appendix 3.
affirmatively. We asked if he was familiar with NSF's policy about keeping
proposals confidential, especially declined proposals; he responded he knew not to
release proposals. He further stated he has not released any proposals.
 We showed the subject the proposal on his web page and asked if he recognized it;
 he did. We asked if he had released or distributed this proposal, and he said no. He
 said he knew the PI and two co-PIs professionally and had funded some of their
 research. Also, he stated he was not aware of the proposal being on the internet,
,nor on his university web page. We asked him who had access to the web page and
 permission to upload documents, and he said only he could have uploaded the
 proposal, since such actions were password protected.
We asked him why the proposal was on his web page, but he said he did not know
how it got there .. He said he had not told anyone about the location of this proposaL
Although he could not explain why he had uploaded this proposal to his account, he
characterized it as a "silly mistake". He asked how we found it, and we told him
anyone could find it through a Google search; he noted search engines can find
things that shouldn't be found. He offered to delete the file, but we told him we
would either want to observe him doing' so, or ask an Information Technology
person at his university to do so to determine if other NSF sensitive information
was there.
We asked the subject why he was accessing a proposal on which he was not the
assigned PD. He said this was a Cyber-enabled Discovery and Innovation (CD I)
proposal, which was a special kind of interdisciplinary proposal reviewed by a panel
comprised of PDs from different divisions and directorates. He added he was not
the head PD of the review panel, but was a moderator responsible for soliciting
reviews from the external engineering community.
We asked the subject to check his records for any emails or other information that
may jog his memory as to why he uploaded a confidential proposal to his personal
web page. We also asked the subject to prepare an affidavit with his statement
explaining the events that led to him placing the proposal in his university web
page (the subject's statement and our MOl are Appendix 4).
After our interview, the subject found several emails he sent to two individuals6
asking them for a, rapid review of the proposal as he was on a tight schedule
(Appendix 5). These emails contained an internet link to the proposal saved on the
subject's web page. The subject stated he could not have sent the proposal via email
as it was too large. 7 Based on the subject's additional information, we reviewed the
Form 78 and noted neither of these individuals was listed on the Form 7 as having



    6 (redacted).
    7 The subject is mistaken about a proposal being too large to email. This proposal is 5.1 MB, well
below the limit of email servers at NSF and at most universities and businesses.
    8 NSF Form 7 is a programmatic record of potential reviewers and indicates who had access to a
particular proposal.
access to the proposal and having been ~- solicited for a review- of the proposal
(Appendix 6). k ' , . f 1.'.
We next interviewed the PD to whom tne proposal' was"assigned (APDf9 ' He
described the structure of the' CDI review panel. ' We' asked if reviewers; were' ,~'.
generally given access to the proposals without'being listed on Form 7, and he said'
no, that would be unusual. We asked ,if he recalled anyone on the panel reque'sting
additional reviews just before the panel met. He said no, but he, ,would check his
emails to be sure. He further stated if a'moderator, (i.e., the subject's role) wanted
last-minute reviews,' s/he ,would. coordinate .with, the other. moderators before
contacting potential review~rs." He said any reviewers after the initial solicitation of
reviewers would be. added to the Form 7. We asked APD if the/CDI panel used
alternative methods for providing proposals to reviewers, for example a PD posting
it to a personal web page.' He, replied that would be a "terrible breach of
confidentiality".lo           <."     ,'J,      ,.','
                                              ',"'./    ~       ,"",_
        ~   ,   ..   ~   I'   l'    ~         *;~    I"   .,                       , . , •             t   i   ',;           "'::   .                       t'   j




We subsequently interviewed one of the reviewers to whom the subject sent the
proposa1.linkJl The' reviewer. did not, im!llediately,;recall anything specific, but
checked his emails and found the subject's.request forrhis review., He remembered
being asked by the subject to ,conduct the ,review quickly, and he had'originally                                                                                    I,


agreed to do so as a favor for Jthe subj~ct, but later, decided against .it, once he
discovered a confliGt.He did not recall if he .requested the ~ubject send him a link. to
the proposal rather than an email or if that 'was the,supject's idea. He'said he has
done'many reviews, but alwayson Fas~L~ne,so thisprocedure was extraordinary.,
He said he did not circulate the;-proposal andJlas a note indicating,he deleted the
proposal from his computer.
                          ~        It         .. '    ~,,l.;J                                                        f   ;              "        "   ,',r


We interviewed the, subj€1ct again' to Jollow-upon his rationale for pursuing these
addition~l reviews. ,When, we,' informed him the CDI panel had· not requested
additional.,reviews and there was. no particular urgency requiring such unorthodox
solicitation" the subject said" he ind~pendently); solicited the reviews. He ;now ,
remembered a pr~vious conversation with one of; the. co-PIs in ~hich. the co-PI
requested extra ,reviews to provide hiIl1 with additional feedback about the proposal.
The subject . offered : ~o apologize. to, the PI and co-PIs, or, to, whomever ,it, was
appropriate for him to apologize. Aft~r the question and answer portion of the
interview, we asked the subject to log into his university account while we watched,
so we could see if addition:al confidentialpr~po~als were'present; there we~e hone in""
either his public or personal folders. We looked at the 'dates on which ,the two
folders were; last acces'sed and noted' neither had 'been accessed since our" last
interview. We asked him to delete the proposal;,which he did:               '
                 .             }*J'~',                ~+       , t ' t •.   t; .         .\j:~                 "\'~                         ••




                                                                .~      .                    ,'"   !
                                   1'-   ".
   9 (redacted).           \" '                "
   10 See attached MOl at Appendix 7.'      < '     . '
   11 (redacted) did not respond to our request for~forrr;,ation.
                                   Relevant NSF Policies
NSF's Proposal and Award Manual (PAM) Chapter Xp2-Information Collection,
Release and Dissemination-section A.I defines an unfunded- proposal as sensitive
information protected by the Privacy Act. More specifically, PAM XI section F.6-
Pending, Withdrawn, or Declined Grant Proposals states:
        With few exceptions, NSF will not release any information on declined,
        pending, returned without review or withdrawn proposals to anyone
        but the submitting PI(s) or Authorized Organizational Representative.
        Copies of unfunded grant proposals should not be released to anyone
        (except reviewers as part of the review process) without the specific
        written agreement ,of the submitting PI(s) or Authorized
        Organizational Representative, or the approval of the FOIA Officer.
NSF's Bulletin 08-10-NSF Policy Regarding the Privacy of Sensitive Information,13
and particularly the Office of General Counsel's (OGC's) Legal Advisory appendix-
The Privacy Act's Application to Proposal Jackets-describes the importance of
maintaining accurate information on who has access as well as ensuring the
confidentiality of NSF's proposals and the approved methods for disclosure of
proposals. It also states: "With a few narrow exceptions, NSF never gives out
information on declined or pending proposals to anyone but the PIs and applicant
institutions who submitted them."         With regard to electronic storage and
transmission, it states: "Personnel should use caution when storing electronic files
on public drives or allowing 'shared' access to personal hard drives or when storing
or transporting information in electronic form ...." Interestingly, OGC notes:
        A reviewer's identity can be withheld from the PI only if the reviewer
        was given an express promise of confidentiality. The request for review
        (PAM, Section V. Merit, Review, -C.2. "Information for Reviewers,
        Identifying    Reviewers'     Conflicts-of-Interest and    Maintaining
        Confidentiality), the FastLane review module, and Form 1230P (for
        review panel members) contain an express promise of confidentiality to
        reviewers. The identities of those who receive no promise (for example,
        persons who submit unsolicited comments) cannot be withheld from
        the PI who makes a proper Privacy Act request.
Regarding the subject's failure to use NSF Form 7, the PAM, sec. VLB.4.d 14 notes
"In the 'case of non-FastLane submitted reviews, program staff are responsible for
updating the Review Record and for accurately recording the scores submitted by
the reviewers."       This requirement is reinforced through the Required
Documentation Matrix showing Form 7 is required for merit reviewed proposals.l 5


   12 http://www.inside.nsf.gov/pubs/pam/pam0409111.htm. viewed July 20,2009.
   13 http://infoshare.nsf.gov//showFile/2827/ib081O.pdf, viewed July 20,2009.
   14 http://www.inside.nsf.gov/pubs/pam/pam0409/6.htm#VIB4.
   15 http://www.inside.nsf.gov/pubs/pam/pam0409/6.htm#ex6 1.
                                           Conclusions
Based on the evidence developed during our investigation, we conclude the subject
violated several NSF policies and practices when he posted a confidential proposal
on his personal web page of his university account. As noted above, the P AlVI
defines the proposal as one of the many pieces of sensitive information a PD handles
in the course of his or her duties. The applicable policies make clear that pending
proposals must be safeguarded and protected from unauthorized disclosure.
Aggravating the matter is the fact that this proposal would not have been, and is
not, available through a Freedom of Information Act (FOIA) request, and the
subject did not delete it after the panel; it remained on his web page accessible to
the public through search engines even after it was declined.
The subject also deviated from NSF's policy and practice when he decided not to
include the two additional reviewers on the Form 7. On the topic of tracking
reviewers who have electronic access, Bulletin 08-10 notes "User profiles, which
define who has access to a system, should be kept current to ensure appropriate
access control." It is. important for NSF to have an accurate system of records16
because NSF releases names of reviewers by NSF division. and at the Federal
Advisory Committee Act (FACA) chartered committee/panellevel as reported in the
NSF Annual FACA Report to the General Services Administration. Furthermore, it
is important to know who has access to a proposal in the event of an unauthorized
release or an allegation of plagiarism. Aggravating this omission of reviewers on
the Form 7, we reemphasize OGC's admonition and point out that because the
subject did not follow NSF policy by soliciting the two additional reviewers through
FastLane, they did not receive an express promise of confidentiality. Thus, if the PI
submits a Privacy Act request, NSF may not be able to withhold the identity of
those individuals.
Therefore, we conclude the subject's posting ofa pending (then declined) proposal on
his university web page represents a violation of NSF policy and is an unauthorized
disclosure of sensitive information, which NSF stresses is to be kept confidentiaL .
We conclude the subject's solicitation of reviewers via email and not through
FastLane represents a violation of NSF policy.
                                        Recommendations
Based on the conclusions outlined above, we recommend NSF proceed with
administrative actions that are appropriate and consistent with previous similar
incidents.




    16 The "Review'erlProposal File and Associated Records" system is a subsystem of the "Principal
InvestigatorlProposal File and Associated Records" system (NSF-50), and contains the reviewer's
 name, title ofproposal(s) reviewed and identifying number, and other related material. 44 U.S.C.
 3101; 42 U.S.C. 1870.
-----....--.--- ..._;,';.--
                              ..
                                                              "



                                                              J

                                                                  NATIONAL SCIENCE FOUNDATION
                                                                     4201 WILSON BOULEVARD
                                                                    ARLINGTON, VIRGINIA 22230




                                   September 11, 2009




                                   Dear Dr.:

                                   This letter is to infonn you of your failure to:

                                   (1) follow NSF procedure for making unfunded proposals available to external reviewers,
                                   thus making the .proposal potentially available to unauthorized persons, and

                                   (2) follow NSF procedure for recording external reviewers.

                                   Although these actions were unintentional, I want to emphasi~e the imp011ance of
                                   confidentiality and accurate record keeping in the NSF review process.

                                   If you should seek employment with NSF in the future, you mu'st comply fully with NSF
                                   policies and procedures. Feel free to contact me at (703) 292-    if~ou have any
                                   questions,

                                   Sincerely,




                                                   FOundation
                                   4201 Wilson Blvd,
                                   Arlington, VA 2230
